                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA OIG’s Compliance
                     With EPA Passport Guidance
                     Report No. 14-B-0244                   May 1, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Jean Bloom
                                                     Kevin Collins




Abbreviations

CFR           Code of Federal Regulations
EPA           U.S. Environmental Protection Agency
OIG           Office of Inspector General
OITA          Office of International and Tribal Affairs
PII           Personally identifiable information



Hotline                                          Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us      To make suggestions for audits or evaluations,
through one of the following methods:            contact us through one of the following methods:

email:     OIG_Hotline@epa.gov                   email:    OIG_WEBCOMMENTS@epa.gov
phone:     1-888-546-8740                        phone:    1-202-566-2391
fax:       1-202-566-2599                        fax:      1-202-566-2599
online:    http://www.epa.gov/oig/hotline.htm    online:   http://www.epa.gov/oig/contact.html#Full_Info

write:     EPA Inspector General Hotline         write:    EPA Inspector General
           1200 Pennsylvania Avenue, NW                    1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                  Mailcode 2410T
           Washington, DC 20460                            Washington, DC 20460
                        U.S. Environmental Protection Agency                                                 14-B-0244
                                                                                                            May 1, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA OIG’s Compliance With EPA Passport Guidance
On August 27, 2013, a member
                                     What We Found
of the U.S. Senate Committee
on Environment and Public
                                    The EPA OIG is not in compliance with EPA guidance         The EPA OIG needs
Works requested that the
                                    governing the control and security of official passports   to ensure that it
U.S. Environmental Protection
                                    issued to OIG employees. The total number of OIG           complies with EPA
Agency (EPA), Office of                                                                        passport guidance to
                                    employees with an official passport is unknown.
Inspector General (OIG),                                                                       protect sensitive PII.
initiate work in connection with
a fraud committed by John C.        The OIG does not have any policies and procedures
Beale, a former Senior Policy       associated with official passports (i.e., the issuance, control and security of
Advisor with the EPA’s Office of    official passports). The conditions occurred due to a lack of knowledge within the
Air and Radiation. One of the       OIG concerning official passport requirements, and a lack of guidance and
areas audited was the agency’s      oversight from the OIG and the EPA’s Office of International and Tribal Affairs
vetting process for new             (OITA). The lack of compliance with OITA guidance may put the OIG in the
employees. We also audited          position where sensitive personally identifiable information (PII) is not being
the process for official            adequately protected. The lack of control could also result in the release of
passports. The audit disclosed      sensitive PII due to missing, misused or improperly destroyed official passports.
issues that impact the OIG and
require immediate attention.         Recommendations

This report addresses the           We recommend that the OIG identify all official passports issued to OIG
following EPA theme:                employees and request that all official passports be returned to the OITA for
                                    proper storage or cancellation. We also recommend that the OIG provide the
 Embracing EPA as a high           OITA with the names and available passport numbers of OIG employees whose
  performing organization.          passports have not been located, and request that the OITA notify the
                                    U.S. Department of State. In addition, we recommend that the OIG develop and
                                    implement one OIG-wide policy and procedure for the issuance and control of
                                    official passports and designate an international travel coordinator position.




For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20140501-14-B-0244.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL




                                              May 1, 2014

MEMORANDUM

SUBJECT:       EPA OIG’s Compliance With EPA Passport Guidance
               Report No. 14-B-0244

FROM:          Kevin Christensen, Acting Assistant Inspector General
               Office of Audit

TO:            Charles Sheehan, Deputy Inspector General

As part of our continuing work on internal controls as a result of the John Beale investigation, we
initiated an audit of the U.S. Environmental Protection Agency’s internal controls over passport security.
We identified issues that impact the Office of Inspector General (OIG) and require immediate attention.

Action Required

Please provide a written response to this report within 60 calendar days. You should include planned
corrective actions and completion dates for the recommendations. Your response will be posted on the
OIG’s public website, along with our memorandum commenting on your response. Your response
should be provided as an Adobe PDF file that complies with the accessibility requirements of Section
508 of the Rehabilitation Act of 1973, as amended. If your response contains data that you do not want
released to the public, you should identify the data for redaction or removal, along with corresponding
justification. We will post this report to our website at http://www.epa.gov/oig.

If you have any questions, please contact me at (202) 566-1007 or christensen.kevin@epa.gov; or
Robert Adachi, Director of Forensic Audits, at (415) 947-4537 or adachi.robert@epa.gov.
U.S. Environmental Protection Agency
Office of Inspector General

             EPA OIG’s Compliance
             With EPA Passport Guidance
             Report No. 14-B-0244
             May 1, 2014
                Reasons for Review
   Part of continuing work on internal controls in response
    to a member of the U.S. Senate Committee on
    Environmental and Public Works request for work in
    connection with a fraud committed by John C. Beale.

   As part of an audit of the U.S. Environmental Protection
    Agency’s (EPA’s) vetting process for new employees, we
    looked into the EPA’s vetting of official passports.

   Issues have been identified that impact the Office of
    Inspector General (OIG) and require immediate
    attention.                                                 14-B-0244




                                                                           2
            Scope and Methodology
Performed fieldwork from February 3 through March 19, 2014.

   Conducted assignment in accordance with generally
    accepted government auditing standards issued by the
    Comptroller General of the United States.

   Sought to determine whether the OIG had policies and
    procedures associated with official passports.

   Met with OIG Chief of Staff and Deputy Assistant Inspector
    General for Investigations.
                                                                 14-B-0244




                                                                             3
       Scope and Methodology (cont’d.)
   Reviewed the EPA’s Office of International and Tribal Affairs
    (OITA) universe of official passports to determine the number of
    OIG personnel issued an official passport.

   Requested that OIG’s Office of Audit, Office of Program
    Evaluation and Office of Investigations identify OIG staff most
    likely to have an official passport.

   Contacted some current OIG employees and one prior OIG
    employee identified as being issued an official passport.

   Conducted an audit of the agency’s passport controls and will
    issue a separate report about the results.                         14-B-0244




                                                                                   4
              Criteria–Official Passport
   The Code of Federal Regulations, under 22 CFR 51.3 (b),
    provides:
    An official passport is issued to an official or employee of the
    U.S. Government traveling abroad to carry out official duties.

   Under 22 CFR 51.52 (b) and (b)(1), official passports are
    exempt from fees when the individual is:
    An officer or employee of the United States traveling on official
    business…. The applicant must submit evidence of the official
    purpose of the travel.

                                                                        14-B-0244




                                                                                    5
Criteria–Passport Acceptance Agents
   Under 22 CFR 51.22 (b)(5), the U.S. Department of State is
    authorized to select an employee of a federal agency to
    accept passport applications on its behalf.

   Within the EPA, four employees have been designated as
    passport acceptance agents:
       o   Two are in the OITA.
       o   Two are in EPA Region 5.




                                                                 14-B-0244




                                                                             6
                    Sensitive Personally
                  Identifiable Information
   OITA website provides the following
    guidance:
    Official passports are controlled United States Government
    documents and must be returned between trips to the Travel
    Office of the Office of International and Tribal Affairs (OITA). Please
    return your official passport to OITA within 15 days after
    returning to the United States. When not in use for travel, all
    official passports will be maintained in a secure facility within OITA.

    All official passports must be forwarded to OITA for immediate
    cancellation: if you retire; if you accept employment elsewhere
    (even if at another government agency); or if you move to another
    position within EPA that does not require official travel.


                                                                              14-B-0244




                                                                                          7
                 Sensitive Personally
               Identifiable Information (cont’d.)
   Official passports are sensitive personally identifiable
    information (PII).

   EPA Privacy Policy 2151.0 defines sensitive PII as:
    Social Security numbers, or comparable identification numbers…
    Sensitive PII, a subset of PII, requires additional levels of security
    controls.

   OIG Policy 413 states:
    Users must store hard copies of sensitive PII in locked file cabinets
    and limit access to only individuals who are authorized to use the
    information.
                                                                             14-B-0244




                                                                                         8
                           Results
   We found the OIG is not in compliance with EPA guidance
    over the control and security of official passports issued
    to OIG employees.

   The total number of OIG employees with an official
    passport is unknown.

   The OIG does not have any policies and procedures
    associated with official passports (i.e., the issuance,
    control and security of official passports).

                                                                 14-B-0244




                                                                             9
             How Did This Happen?
   Lack of knowledge within the OIG concerning official
    passport requirements.

   Lack of guidance and oversight from the OITA and the OIG.




                                                                14-B-0244




                                                                        10
              Why Is This Important?
   Lack of compliance with OITA guidance may put the
    OIG in the position where sensitive PII is not being
    adequately protected.

   Lack of control could result in the release of sensitive
    PII due to missing, misused or improperly destroyed
    official passports.




                                                               14-B-0244




                                                                       11
Total OIG Official Passports Unknown
   OIG has no record of who was issued an official
    passport or the passport’s status.
                                            Current   Former
Official passports identified              employees employees Total
Official passports held by OIG employees       3         2       5
and identified as an OIG employee by
OITA
Official passports held by OIG employees       4         1       5
and identified as an employee in an
agency office by OITA
Official passports not in OITA records         0         1       1
provided
TOTAL                                          7         4       11
                                                                       14-B-0244




                                                                               12
           Location of Official Passports
   OIG has no record of the location of official passports
    issued. According to the OITA:
                                                       Current                   Former
    Location of passport*                             employees                 employees   Total
    OITA Possession**                                         3                     1        4
    Traveler                                                  4                     2        6
    Unknown                                                   0                     1        1
    TOTAL                                                     7                     4        11



     * Locations is based upon OITA records.
    ** Location in OITA records denotes passport as being in OITA possession.
                                                                                                    14-B-0244




                                                                                                            13
     OIG Official Passports Unknown
Based on information provided:
 We could not determine how many employees came to
   and left the OIG since OITA began compiling its records.

   We could not determine how many employees obtained
    an official passport.

   We could not determine whether additional OIG
    employees are identified as being part of other EPA offices
    in the universe provided by OITA.

                                                                  14-B-0244




                                                                          14
      Lack of Policies and Procedures
   OIG does not have any policies and procedures for the
    issuance and control of official passports.

   OIG’s Office of Investigations is in the process of
    preparing a policy and procedure for official passports
    issued to its employees (that proposed procedure would
    not be applicable to the OIG as a whole).




                                                              14-B-0244




                                                                      15
Lack of International Travel Coordinator
   There is no international travel coordinator within the OIG.

   The most recent OIG international travel coordinator retired over
    2 years ago.

   The international travel coordinator is the initial contact when
    developing an international travel plan and provides instruction to
    travelers on obtaining official passports.

   The Fast International Approval Tracking database indicated three
    OIG employees could have traveled internationally without having an
    official passport. U.S. Department of State policy says federal
    government employees on official international travel must travel
    with their official passport.                                     14-B-0244




                                                                              16
            Official Passport Issuance
   Any future requests for an official passport should be
    approved by the Inspector General prior to contacting
    the OITA.
       o   One official passport was issued in 2013 without the approval of
           OIG management. Employee followed instructions provided by
           the OITA and paid a fee for the official passport.
       o   Payment of a fee defeats the benefit of an official, no-fee
           passport.




                                                                          14-B-0244




                                                                                  17
       Control and Security of Official
    Passports for Current OIG Employees
   All official passports need to be returned to the OITA
    consistent with its guidelines.

   According to the information provided by the OITA, seven
    current OIG employees have official passports.
       o   Four passports are in the possession of the employees.
       o   Three passports are with the OITA.

   Two official passports could not be located in the OITA’s safe.
       o   Both passport were in the possession of the employees.

                                                                    14-B-0244




                                                                            18
    Proper Disposal of Official Passports
   Official passports for employees leaving the OIG need to be
    returned to the OITA. Guidelines for passport return are
    posted on the OITA website.

   We identified three employees who left the OIG with an
    official passport.
       o   We were able to contact only one former employee, who stated
           that he returned his official passport when he left the OIG.
           However, there is no record that the official passport was ever
           received or disposed of in accordance with OITA guidelines.

                                                                         14-B-0244




                                                                                 19
    Proper Disposal of Official Passports
                                 (cont’d.)
   OIG guidance in place at the initiation of audit fieldwork did not
    include any information concerning official passports for employees
    leaving the OIG.
   A new separation and clearance procedure dated February 27, 2014,
    was added to the OIG Intranet. The new procedure requires:
     a.   The OIG Office of Human Resources be made aware of its
          responsibility to contact the OITA Passport Office when an OIG
          employee is planning to separate from employment.
     b.  The OITA to confirm whether an official passport was issued to
         the separating employee.
   The new procedure was not disseminated OIG-wide.
                                                                           14-B-0244




                                                                                   20
                   Recommendations
   We recommend that the Deputy Inspector General:
    1.   Identify official passports issued to OIG employees.

    2.   Request that all official passports be returned to the OITA for proper
         storage or cancellation.

    3.   Provide the OITA with the names and available passport numbers of
         OIG employees whose passports have not been located, and
         request that the OITA notify the U.S. Department of State.




                                                                            14-B-0244




                                                                                    21
        Recommendations (cont’d.)
4.   Develop and implement one OIG-wide policy and procedure to
     include, at a minimum:
     a. Designation of an international travel coordinator position and a
        description of the coordinator’s function and responsibilities.
     b. Procedures for requesting an official passport.
     c. A requirement that all OIG personnel traveling outside of the
        United States on official government business obtain an official
        passport prior to traveling.
     d. A requirement that upon completion of travel the official
        passport be returned in accordance with OITA guidelines.


                                                                       14-B-0244




                                                                               22
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1       Action Official           Date      Amount      Amount

     1       21    Identify official passports issued to OIG employees.       O       Deputy Inspector General

     2       21    Request that all official passports be returned to the     O       Deputy Inspector General
                   OITA for proper storage or cancellation.
     3       21    Provide the OITA with the names and available              O       Deputy Inspector General
                   passport numbers of OIG employees whose
                   passports have not been located, and request that
                   the OITA notify the U.S. Department of State.
     4       22    Develop and implement one OIG-wide policy and              O       Deputy Inspector General
                   procedure to include, at a minimum:
                     a. Designation of an international travel
                        coordinator position and a description of the
                        coordinator’s function and responsibilities.
                     b. Procedures for requesting an official
                        passport.
                     c.   A requirement that all OIG personnel
                          traveling outside of the United States on
                          official government business obtain an official
                          passport prior to traveling.
                     d. A requirement that upon completion of travel
                        the official passport be returned in
                        accordance with OITA guidelines.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-B-0244                                                                                                                                       23
                                                                          Appendix A

                             EPA OIG Distribution
Inspector General
Deputy Inspector General
Counsel to the Inspector General
Deputy Assistant Inspector General for Congressional and Public Affairs




14-B-0244                                                                         24
